<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2007

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Homeland Security for inclusion in the record. 
The submitted materials relate to the fiscal year 2007 budget 
request for programs within the subcommittee's jurisdiction.]

      Prepared Statement of the American Psychological Association

    Mr. Chairman and members of the Subcommittee, the American 
Psychological Association (APA) represents 150,000 members and 
affiliates, and works to advance psychology as a science, a profession, 
and a means of promoting health and human welfare. Psychologists are 
involved in a broad spectrum of programs within the jurisdiction of 
this Subcommittee. For example, psychologists manage the Social and 
Behavioral Research Program within the Threat Awareness Portfolio of 
the DHS Science and Technology Directorate. Psychologists also provide 
expertise as members of the Homeland Security Science and Technology 
Advisory Committee and the Academe and Policy Research Senior Advisory 
Committee of the Homeland Security Advisory Council. Psychologists 
serve as Principle Investigators directing the activities of two of the 
five University-Based Centers of Excellence and student psychologists 
are becoming the next generation of Homeland Security experts training 
under the DHS Scholars and Fellows program.
    Overall, APA has been pleased to see the increasing emphasis DHS is 
placing on behavioral and psychological science within the department. 
However APA is also concerned about how pending DHS reorganization and 
proposed budget cuts might undermine long range planning for 
psychological and behavioral research programs within the department. 
Finally, DHS must remain ever-mindful that behavioral research 
necessarily involves systematically collected and analyzed empirical 
data that cannot be replaced by the well-intentioned but perhaps ill-
informed speculation of experts or contractors who lack training in the 
behavioral sciences.
    The Threat Awareness Portfolio was cut 35 percent from fiscal year 
2005 to fiscal year 2006. The fiscal year 2007 budget calls for an 
additional 6.4 percent cut over fiscal year 2006. APA recommends that 
Congress restore the proposed 6.4 percent cut and fund the Threat 
Awareness Portfolio at or above the $43 million fiscal year 2006 
appropriation.
    The Threat Awareness Portfolio (TAP) in the Science and Technology 
(S&T) Directorate of the Department of Homeland Security (DHS) sponsors 
research to inform, develop, and test tools and methodologies to assess 
terrorist threats, understand terrorism, and improve national security. 
There are three broad program areas within TAP, one of which is the 
Social and Behavioral Research (SBR) Program. The SBR Program sponsors 
social science and behavioral research to support the missions of DHS 
and the broader law enforcement and intelligence communities, as well 
as promote the safety and security of the American public.
SBR Program Description, Strategic Goals, and Areas of Research
    The SBR Program was developed with four strategic aims. The program 
leverages the theories, data, and methods of the social and behavioral 
sciences to improve the detection, analysis, and understanding of the 
threats posed by individuals, groups, and radical movements; it 
supports the assessment of the psychosocial impacts of catastrophic 
events and the validation of public communications and education 
programs to increase the American public's all hazards preparedness and 
response capabilities; it facilitates information exchange across the 
Federal Government to enhance the knowledge and coordination of 
Federally sponsored social and behavioral science research related to 
national security and preparedness; and it develops mechanisms to 
provide senior policymakers with social and behavioral science theories 
and data that can inform their decisions. To achieve these aims, the 
SBR Program supports numerous coordinated activities that incorporate 
social and behavioral science into coherent, integrated techniques and 
methodologies. These activities fall within four broad research and 
development areas that support each of the strategic goals of the SBR 
Program.
    First, the program's activities inform the ability of operational 
end users (including personnel involved with border and transportation 
security, customs enforcement, and intelligence analysis), to detect 
threats and conduct accurate risk assessments. With continued support, 
these efforts will produce two main products--models of behavioral and 
linguistic cues that indicate whether an individual is likely engaged 
in deception or is intent on doing harm; and an integrative model of 
the ideological, organizational, and contextual factors associated with 
a group or radical movement's likelihood of engaging in violence.
    Second, the program supports coordinating research in public 
education and communication aimed at increasing the American 
population's ability to prepare for and respond to natural and man-made 
catastrophic events and developing quantitative assessments of 
psychosocial vulnerabilities. With continued support, these efforts 
will test and evaluate the effects of various theoretically sound 
messaging and education programs on public all-hazards preparedness and 
response, as well as develop an index to measure the psychosocial 
impact of catastrophic events.
    Third, the program sponsors activities to improve the coordination 
of social and behavioral science research related to national security 
and preparedness by supporting various methods of information sharing 
across the Federal Government. With continued support, these efforts 
will produce integrated symposia and workshops attended by relevant 
Federal partners and a participatory web-based system for sharing 
information on Federally funded social and behavioral science research 
related to national security and preparedness.
    Fourth, the program assembles leading thinkers on the social and 
behavioral aspects of terrorism and national security to participate in 
study sessions and web-based dialogue focused on topics of relevance to 
the SBR Program and DHS as a whole. With continued support, this group 
will produce white papers and briefings on a range of topics (see 
appended description of DHS Social and Behavioral Sciences Partnership 
Program).

    IMPROVING RISK ASSESSMENT BY INCREASING THE AWARENESS OF THREATS

    To protect the nation effectively, it is essential to improve our 
ability to assess the potential threats posed by individuals as well as 
the larger terrorist groups and movements to which they may belong. In 
fiscal year 2007, the SBR Program's activities will continue to build 
upon work completed in fiscal year 2006 to improve our ability to model 
whether an individual is intent on doing harm or engaged in deception, 
as well as improve our ability to model the likelihood that a group 
will engage in violent activity. Additional work will be sponsored to 
compare how models based on open source material differ from models 
developed on classified data.
Improving Awareness of Individual Threats--Project Hostile Intent
    An ongoing program, Project Hostile Intent aims to detect and model 
the behavioral cues that indicate an individual's intent to do harm 
and/or deceive The cues examined in Project Hostile Intent are those 
that can be assessed remotely and in real time, and the procedures and 
technologies required to collect these cues are non-invasive and 
amenable to integration into busy operational contexts. In addition to 
detecting these cues, this project examines whether this process can be 
automated through the use of sensors and detection algorithms and, 
subsequently, integrated with other technologies aimed at identifying 
individuals who pose threats to the homeland, e.g., biometric tools and 
databases. The targeted customers of this research are Customs and 
Border Patrol and Transportation Security Administration personnel.
Improving Awareness of Group Threats
    Another SBR Program research priority is improving our ability to 
determine the intentions of various domestic and foreign groups who may 
pose a threat to the U.S. homeland or U.S. interests abroad. The 
central activity in this area is the Motivation and Intent (M&I) 
Project, aimed at developing models to inform analysts' assessments 
regarding whether a group intends to engage in violent activity to 
further its goals. In future years, work in this area will be further 
expanded to incorporate the modeling of radical movements and the 
violent activity associated with such movements. In addition, several 
projects will be sponsored to augment the M&I effort by providing 
additional data or addressing gaps in the current social and behavioral 
science research. The tools, methodologies, and knowledge developed 
through this research program will improve the efficiency and accuracy 
of intelligence analysis by identifying key social and behavioral 
science variables to consider when assessing the likelihood that a 
group may intend to act violently.
            The Motivation and Intent (M&I) Project
    In fiscal year 2005, the SBR Program initiated funding of the M&I 
Project. This activity draws on social science data and theories to 
develop analytic models aimed at determining the ideological, 
organizational, and contextual factors associated with a group's 
likelihood of engaging in violence. The goal of this on-going effort is 
to develop an integrated framework that enables analysts to examine the 
impact of various social and behavioral science variables on a group's 
intent to engage in violence. The project will model the factors 
associated with violent activity carried out by both domestic and 
foreign groups. APA believes that this work could be augmented by 
research to understand how terrorist organizations reason with respect 
to target selection (i.e., does target selection depend on 
circumstances such as differential vulnerability of targets, as opposed 
to other considerations). Further, it would be helpful to understand 
how specific tactics are adopted and the considerations that enter into 
tactic selection.
            Update and Maintenance of the Global Terrorism Database
    The SBR Program has supported the updating of a coded and 
computerized database comprised of more than 69,000 terrorist incidents 
recorded worldwide from 1970-1997 as well as the initial coding and 
inclusion of incidents that have occurred from 1998 to the present. 
While this worthwhile activity will continue to be supported in fiscal 
year 2006 and beyond, APA believes a complementary database of 
government responses to terrorism would also be helpful as terrorists 
appear to adapt and counter-adapt based on responses to their actions.
            Quantitative Analysis of Terrorist Perspectives and 
                    Behaviors
    The SBR Program also will sponsor activity to incorporate 
perspective analysis into the M&I Project. This project will involve an 
analysis of the perspectives of multi-level (individual, group, and 
subculture) actors in a country or region in which various terrorist 
groups of interest operate. An underlying conceptual framework will be 
created informed by social and behavioral scientists and other subject 
matter experts who are familiar with the region, politics, and actors 
of interest. The framework will extract patterns in actors' foci and 
attitudes from various sources of data (e.g., media statements and 
materials from actors' websites). This activity will add a unique 
capability as it will allow an analyst to make more informed decisions 
regarding agents' intentions based on the perspectives of multiple 
actors in a region of interest.
    In addition, a team of social and behavioral scientists will 
quantify the perspectives of these actors and conduct statistical 
analyses relating these perspectives to various types of activities 
(for example, engaging in violence, condoning violence, participation 
in the political process, etc.). This effort will allow for the testing 
of social and behavioral science theories drawing on the unique source 
of data provided by the perspective analyses of various actors. It will 
also allow for a scientifically rigorous analysis of trends in actors' 
attitudes and behaviors based on an analysis of actors' perspectives 
and detailed chronologies of their behaviors. The findings from this 
project will inform the M&I Program's modeling efforts and allow for 
the refinement of the conceptual framework that forms the basis for the 
perspective analysis.
            Systematic Comparison of Open and Classified Data Sources
    The SBR Program will sponsor work that conducts a detailed 
comparative analysis of open source data and classified data, 
specifically focused on the information used to identify the motives 
and intents of actors of interest. This activity will identify the 
relative strengths of these two types of data and explore what types of 
information they provide to help an analyst determine the intentions of 
individuals and groups. The research in this area will provide detailed 
comparative information on open source and classified data that will 
better inform decisions regarding whether and/or when to rely on open 
source data, and the applicability of academic research to intelligence 
analyses.
Improving Risk Assessment and Risk Communication
    Research in the social and behavioral sciences can examine how best 
to help the American population prepare for and respond to natural and 
man-made catastrophic events, thereby reducing one component of 
national vulnerability. Public communication and education strategies 
for natural and man-made catastrophic events are key components of 
DHS's overall preparedness and response missions, and sponsoring 
research on the efficacy of these communications is a stated priority 
of the SBR Program.
    However, current risk communications strategies should be informed 
by decades of existing research which have produced consistent findings 
regardless of the category of risk under study. Such research shows 
that people want the truth, even if it is worrisome and as such, candor 
in risk communication is critical. People can absorb only a limited 
amount of new information at a time and as a result risk communications 
must prioritize and organize critical facts according to the way the 
target audience naturally thinks. Further, people have an inherent 
difficulty in understanding certain kinds of information (e.g. that 
repeated exposure to small risks increases their overall risk) so risk 
communications must accommodate the known strengths and weaknesses of 
the target audiences thought processes. Additionally, emotions can 
cloud people's judgment in predictable ways that interferes with 
decision making so those charged with communicating risks must do so 
respectfully in order to facilitate reasoned decision making. Even the 
most experienced communicators cannot accurately predict how messages 
will be interpreted on novel topics or with unfamiliar audiences. Thus 
messages must be systematically evaluated for both intended and 
unintended reactions before they are disseminated. In emergency 
planning exercises, people exaggerate their ability to predict others 
behavior, as a result social and behavioral scientists need to be 
included in such planning teams to ensure that plans are based upon 
science rather than intuition. Finally, people generally make sensible 
and effective decisions if communicators deliver relevant, timely and 
accurate information.
Improving Federal Information Sharing and Collaborative Research 
        Efforts
    A priority of the SBR Program is the development of effective 
methods for information sharing among Federal agencies tasked with 
addressing various aspects of national security and preparedness. Not 
only will such information sharing increase the effectiveness and the 
ability of the government to protect U.S. interests at home and abroad, 
it will also increase collaborative research efforts and reduce 
unnecessary duplication. The initial effort will consist of workshops 
focused on issues related to national security and will later expand to 
the provision of web-based dialogue and interaction to facilitate 
information exchange.
Providing Policymakers Social and Behavioral Science Information--The 
        Social and Behavioral Sciences Partnership
    The Social and Behavioral Sciences Partnership (Partnership) 
Program assembles leading thinkers on the social and behavioral aspects 
of terrorism and national security to participate in study sessions and 
web-based dialogue focused on topics of relevance to the SBR Program, 
DHS, and the nation as a whole. It was created to describe the 
significant roles that social, cultural, economic, and psychological 
factors play in the threats we face and our counter-threat activities 
and provide a mechanism for communicating social and behavioral 
research findings to policymakers. In fiscal year 2006, at the request 
of the DHS Policy Directorate, the Partnership will examine the impact 
of U.S. policies on radicalization in the United States. It will also 
hold study sessions on topics related to (1) assessing the intent of 
terrorist groups and (2) determining the long-term impacts of a 
terrorist attack with improvised nuclear device.
    APA recognizes that recent events such as hurricane Katrina, as 
well as forecast events such as a pandemic flu outbreak, have forced a 
realignment of the Department's strategic goals to prioritize the 
strengthening of public resilience in responding to the diverse threats 
facing us. That will mean evaluating Departmental investments in terms 
of their contribution to, among other things, strengthening 
communities, securing trust in government, providing multi-threat 
response capabilities and enhancing economic and institutional 
recovery.
    Accomplishing these tasks will require attention to social and 
behavioral variables in three contexts:
  Predicting the public's response to various threats (e.g., to what 
        extent will people understand warnings, trust authorities, 
        support one another in the face of threats, rebound from 
        trauma).
  Understanding the limits to analyses and plans, so that citizens and 
        officials have realistic expectations of the confidence to 
        place in them.
  Communicating about threats, so that people receive the specific 
        information that they need for effective action, in a credible, 
        comprehensible form.
    These issues are relevant to preparation, response, and recovery 
for all threats. While the Social and Behavioral Sciences Partnership 
has begun to address these issues, APA believes the Department would 
benefit from an in-house Center for Translational Social and Behavioral 
Science Research tasked with ensuring that our homeland security plans 
are grounded in the best available science.
    Although the center should be located in the Science and Technology 
Directorate, it should provide services to the entire Department. For 
example, it would be a resource for creating scientifically sound, 
behaviorally realistic communications, usability standards, risk 
analyses, and emergency plans. It would also identify fundamental 
issues, to be studied by the University Centers of Excellence and 
others.
    The Center proposed is similar to the Office of Behavioral and 
Social Sciences Research at the National Institutes of Health (NIH) 
which celebrates a 10 year anniversary this year and leverages a modest 
budget to coordinate interdisciplinary and translational behavioral and 
social science research across the twenty-seven Institutes and Centers 
of NIH. This initiative would address a significant gap in the 
Department's science and technology resources, while providing an 
essential input to implementing the Department's commitment to risk-
based decision making.

         UNIVERSITY PROGRAMS--DHS SCHOLARS AND FELLOWS PROGRAM.

    APA has been very pleased to see how well behavioral and social 
scientists are represented in the DHS Scholars and Fellows awards. 
However, we are concerned that cuts to the fiscal year 2006 budget and 
proposed cuts to the fiscal year 2007 budget will serve to disrupt a 
critical career pipeline for the next generation of Homeland Security 
scientists. If the proposed fiscal year 2007 budget is enacted, DHS 
will cut Scholars and Fellows support by one third. Especially this 
year, as the Administration and Congress focus on the American 
Competitiveness Initiative, we strongly recommend that the subcommittee 
restore full funding of the DHS Scholars and Fellows program.
    University Programs were cut 11 percent from fiscal year 2005 to 
fiscal year 2006. The fiscal year 2007 budget calls for an additional 
16 percent cut over fiscal year 2006. APA recommends that Congress 
restore the proposed 16 percent cut and fund the University Programs at 
or above the $62 million fiscal year 2006 appropriation.
  department of homeland security report language for fiscal year 2007
Proposed by the American Psychological Association
            Science and Technology Directorate
    The Committee understands that terrorists are people and terrorism 
is behavior, therefore understanding the importance of the behavioral, 
psychological and social sciences to countering terrorism and homeland 
security is paramount. The Committee applauds DHS strong support of a 
full range of behavioral and social science research.
    The Committee recommends DHS implement a Center for Translational 
Social and Behavioral Science Research tasked with ensuring that our 
homeland security plans are grounded in the best available science. The 
Committee believes such a center should be a resource for creating 
scientifically sound, behaviorally realistic communications, usability 
standards, risk analyses, and emergency plans and should also identify 
fundamental issues to be studied by the University Centers of 
Excellence and others.
    The Committee appreciates that the psychological consequences of a 
manmade and natural disasters are likely to be widespread and long 
lasting and that events like hurricanes Katrina and Rita are known to 
have caused stress and anxiety in Americans of all ages, ethnicities, 
and disparate geographical locations. Mental health practitioners must 
be trained to deal with the particular aftermath that such events 
impose. The Committee encourages DHS to ensure that mental health 
research, particularly longitudinal research, is focused on how to 
respond, mitigate and inoculate the populace as effectively as 
possible.
    The Committee also recognizes, however, that the social and 
behavioral sciences have a much larger role to play than the single 
domain of mental health. The technological devices and infrastructure 
that are created in support of counter-terrorism and homeland security 
efforts will be only as effective as the humans who interact with them. 
Because many instances of protection against devastating loss since 9/
11 involved human alertness to unusual behavior, the Committee 
recognizes that a significant portion of the most effective defense 
against domestic attack will be human agents. In addition, the 
Committee acknowledges that as we devise innovative technological 
systems to thwart terrorists, the most dangerous terrorist will be one 
who knows how to modify his or her behavior so as to circumvent these 
systems. Therefore, the Committee believes that effective counter-
terrorism technologies must be developed in concert with the social and 
behavioral sciences.
    The Committee encourages DHS to pursue research on the assessment 
of the human dimensions (social, cultural, and behavioral) in which 
networks exist, such as first-response teams, emergency management 
teams, communication systems, intelligence networks, terrorist groups, 
and U.S. government (Federal, State, and local) departments and 
agencies. Systems analysis and systems engineering are powerful tools 
for understanding how these networks function. However, the Committee 
recognizes that these tools will be useful only to the extent those 
human behavioral variables are appropriately described and incorporated 
into the analyses.
    The Committee is concerned about the utility of the Homeland 
Security Advisory System and encourages DHS to include an on-going 
evaluation of its effectiveness. The Committee encourages DHS to 
support research on risk assessment and the communication of risk in 
order to understand the framework in which the communicator operates as 
well as the knowledge base and competence of the audience. The 
Committee recognizes that an effective and meaningful alert system 
involves knowing how to articulate the goals of the communication 
including whether to inform only, or to inform and change behavior.
    The Committee encourages further development of animal models for 
the assessment of chemical, radiological and biological agents that 
might be used as weapons of attack and the pharmacological 
countermeasures required to neutralize or reverse their effects. The 
Committee recognizes that animal models are useful not only as 
indicators of the apparent physiological responses to such agents, but 
careful measurement of their behavior (motivation, learning, 
aggression) can serve as more sensitive indices of both long- and 
short-term effects of such weapons. Further, the Committee recognizes 
animals also are potential targets of attack in the agricultural 
sector, so that longitudinal data on animal behavior can serve as 
valuable baseline data against which to detect attacks by biological 
agents that may be either slow- or fast-acting.
    The Committee recognizes that understanding how humans process 
information is critical to developing new technologies for information 
gathering and intelligence analysis. The Committee encourages 
additional research to ensure that such technologies optimally 
accommodate the human user. Further, the Committee encourages DHS to 
support research that applies basic learning algorithms to data-mining 
systems. Such systems can then become language-independent and analyze 
text for meaning rather than simply the identification of keywords.
    The Committee recognizes the value of robotics in performing 
dangerous work and in substituting for human surveillance. The 
Committee encourages DHS to support research on human-machine 
interaction to optimize the functions of both the human and machine in 
this partnership. The Committee recognizes that it is imperative to 
understand how best to design robotic systems to interact effectively 
with their human controllers and partners. The Committee believes that 
human behavior cannot be perceived as a weak link in this interaction 
because human cognitive, perceptual and motivational capacities are a 
given and the machine system must be built to complement the human 
user.
    The Committee recognizes the profound effect that terrorism can 
have on social systems and encourages DHS to support research on how 
attitudes and beliefs about terrorism affect consumer confidence, 
population mobility, decisions about child-care, job behaviors, and 
attitudes towards immigrants, religion, political institutions and 
leaders. The Committee encourages further research on understanding the 
short- and long-term effects of stereotyping and marginalization of 
groups as well as research on hate-crimes and the emergence and 
maintenance of fundamentalist, extremist, and anti-government groups 
within the United States and outside the United States.
    The Committee recognizes the potential for massive disruption by 
those who would distribute erroneous or system-destructive information 
into the Internet, the telecommunications infrastructure, embedded/
real-time computing systems, and dedicated computing devices. The 
Committee recommends DHS support research to analyze the behavior, 
motivations and social contexts of known instances of successful 
``hacking''. The Committee encourages DHS to research effective 
safeguards that our consistent with the behaviors of the humans that 
use these systems.
    The Committee recognizes that emergency management, evacuation, and 
the design of egress systems are operable only to the extent that we 
know how humans behave in emergency situations. The Committee 
encourages research on human behavior under duress and encourages 
research on designing emergency systems and infrastructure (operation 
and communication systems, buildings, roads and tunnels, stadiums) that 
facilitate the most effective behavior in emergency situations.
    The Committee recognizes there is a need to put as much attention 
into government responses to terrorism as into terrorist acts 
themselves. There are a number of data bases recording particulars of 
terrorist attacks, but none so far that record government responses 
(legal, military, political, policing; strategy and tactics) on the 
same time line as the terrorist attacks. The committee believes this 
information is critical to track because terrorists appear to adapt and 
counter-adapt based on responses to their actions.
    The Committee recommends that DHS also encourage research to 
understand how terrorist organizations reason with respect to target 
selection (i.e., does target selection depend on circumstances such as 
differential vulnerability of targets, as opposed to other 
considerations). Further, it would be helpful to understand how 
specific tactics are adopted and the considerations that enter into 
tactic selection.
    The Committee realizes there is a need to understand how groups 
move from radical protest or social movement to terrorism and to 
examine the trajectories by which individuals move to terrorism. 
Whether an individual joins a protest group or social movement which 
escalates to the level of terrorism or joins an existing terrorist 
group, the background and experience and psychology of individuals 
recruited to terrorism in these two ways may be quite different. Moving 
to terrorism as a member of a continuing group is more like a slippery 
slope, whereas moving to terrorism by joining an existing terrorist 
group is more like making a decision.
    The Committee urges DHS to developing data bases of terrorist 
rhetoric for important terrorist groups over time. If terrorists there 
are rhetorical differences between protest groups that do and do not go 
on to commit terrorist acts such differences might be useful for 
directing countermeasure resources. When the rhetoric is not in 
English, English speaking researchers need the rhetoric translated so 
that they can apply text analysis tools in seeking rhetorical 
predictors.
    The Committee appreciates the DHS focus on jihadist terrorism but 
recognizes that it also needs to prepare for a resurgence of domestic 
terrorism. Neo-Nazi, constitutionalist, and white militia violence 
emerged after the Soviet threat disintegrated; similarly it can be 
expected that these groups and their violence will reemerge as the 
threat from Al Qaeda fades. There is a danger in focusing only on 
jihadist terrorism. The Committee suggest that National surveys with 
unobtrusive questions (what percent of world's population is white?) 
could begin to track the popularity of ideas associated with the idea 
that the U.S. Federal Government is the enemy.
    The Committee notes that thus far, Islamic communities in Europe 
have been more involved in jihadist violence than Islamic communities 
in the United States. The Committee urges DHS to continue to research 
the determinants of support for violence among diasporas and develop 
theories of diaspora experience in relation to home country politics 
and especially support for violence in relation to home country 
politics.
    The Committee understands that Al Qaeda is less an organization 
than a brand name or sympathy group with many local franchises now. The 
anarchist movement of the late 1800s and early 1900s had a similar 
quality, and due to the international nature of the anarchist threat 
governments leaders reached unprecedented cooperative agreements in 
trying to suppress the anarchists. The Committee recommends that DHS 
conduct a review of research on anarchist terrorism at the beginning of 
the 20th century in an effort to apply lessons learned for suppressing 
Al Qaeda.
    The Committee urges DHS to continue research on the psychology of 
negative intergroup emotions. Most analyses of terrorism and terrorist 
motives makes reference to fear, hate, anger or humiliation but the 
Committee understands there is very little empirical research on hate 
and humiliation. Further while there is research on anger and hate it 
appears to focus on the interpersonal level which may be very different 
than anger and hate at the intergroup level. The Committee recognizes 
that episodes like Abu Ghraib highlight the problem in understanding 
intergroup emotions which are twofold: understanding the relation 
between interpersonal and intergroup emotions, and understanding in 
particular intergroup emotions of hate, humiliation, and shame.
    The Committee recommends that DHS continue to review criminology 
literature and research related to gangs, especially youth and prison 
gangs, to better understand how different types of terrorist groups on 
the basis of recruiting, decision making, and desistence. The Committee 
believes that through research comparing terrorist groups that do and 
do not split, DHS might learn how to encourage internal conflict and 
splitting within terrorist organizations. Further, the Committee notes 
that there are cases, such as the Armenian Secret Army for Liberation 
of Armenia, and Egyptian Group after Luxor, in which terrorist activity 
drops quickly from high to low levels. As the dynamics of endings are 
not necessarily the reverse of the dynamics of beginnings, the 
Committee believes it should be useful to study such cases to learn how 
to encourage desistence.
    The Committee notes that terrorists are sometimes but not always 
seen as representing the group or cause they claim to be fighting for. 
Psychological research has emphasized attributions to individual actors 
with little attention to attributions to groups, and the attributions 
of interest are moral responsibility more than the usual psychological 
focus on perceived ``causes'' of behavior as trait-based or situation-
based. The Committee encourages DHS to conduct additional research on 
attribution theory to better understand how actions of a few are 
sometimes but not always attributed to the group the individuals come 
from.
    The Committee urges DHS to continue to study why some groups move 
from local to international terrorism. Most terrorism begins in 
response to local issues, and relatively few groups escalate to 
international attacks. The Committee believes we need to understand 
when and how this kind of escalation occurs. The Committee notes that 
most data bases focus on international terrorist attacks and may 
discount data about earlier local attacks by the same groups. The 
Committee believes that by studying local terrorist groups whose 
actions remained local DHS would have a basis for comparison with local 
groups that transitioned to international attacks.
                                 ______
                                 

  Prepared Statement of the American Public Transportation Association

    APTA is a nonprofit international association of over 1,600 public 
and private member organizations including transit systems and commuter 
rail operators; planning, design, construction and finance firms; 
product and service providers; academic institutions; transit 
associations and State departments of transportation. APTA members 
serve the public interest by providing safe, efficient and economical 
transit services and products. Over 90 percent of persons using public 
transportation in the United States and Canada are served by APTA 
members.
    Mr. Chairman, thank you for this opportunity to submit written 
testimony on the security and safety of public transportation systems. 
We appreciate your interest in transportation security, and we look 
forward to working with you as you develop the fiscal year 2007 
appropriations bill for the Department of Homeland Security.

                               ABOUT APTA

    The American Public Transportation Association (APTA) is a 
nonprofit international association of more than 1,600 public and 
private member organizations including transit systems and commuter 
rail operators; planning, design, construction, and finance firms; 
product and service providers; academic institutions; transit 
associations and State departments of transportation. APTA members 
serve the public interest by providing safe, efficient, and economical 
transit services and products. More than 90 percent of the people using 
public transportation in the United States and Canada are served by 
APTA member systems.

                                OVERVIEW

    Mr. Chairman, public transportation is one of our Nation's critical 
infrastructures. We cannot overemphasize the critical importance of our 
industry to the economic quality of life of this country. Over 9.6 
billion transit trips are taken annually on all modes of transit 
service. People use public transportation vehicles over 32 million 
times each weekday. This is more than 16 times the number of daily 
travelers on the Nation's airlines.
    Safety and security are the top priority of the public 
transportation industry. Transit systems took many steps to improve 
security prior to 9/11 and have significantly increased efforts since 
then. Since September 11, 2001, public transit agencies in the United 
States have spent over $2 billion on security and emergency 
preparedness programs and technology from their own budgets with only 
minimal Federal funding. Last year's events in London and the previous 
year's events in Madrid further highlight the need to strengthen 
security on public transit systems and to do so without delay. We do 
not need another wakeup call like the terrorists attacks on rail 
systems in London and Madrid.
    We urge Congress to act decisively on this issue. In light of the 
documented needs, we respectfully urge Congress to provide at least 
$560 million in the fiscal year 2007 Homeland Security Appropriations 
bill for transit security grants to assist transit systems to continue 
to address the $6 billion in identified transit security investment 
needs. Funding at this level annually would allow for dramatic 
improvement in security for the Nation's transit users over a 10 year 
period. Federal funding for additional security needs should provide 
for both hard and soft costs as described below and will be in addition 
to investments as transit systems continue to provide from their own 
resources. We also respectfully urge Congress to provide $500,000 to 
the Department of Homeland Security (DHS) so that DHS can in turn 
provide that amount in grant funding to the APTA security standards 
program which includes participation with our Federal partners to 
assist with the development of transit security standards. In addition, 
we respectfully urge Congress to provide $600,000 to maintain the 
Public Transit Information Sharing Analysis Center (ISAC).

                               BACKGROUND

    In 2004 APTA surveyed its U.S. transit system members to determine 
what actions they needed to take to improve security for their 
customers, employees and facilities. In response to the survey, transit 
agencies around the country have identified in excess of $6 billion in 
transit security investment needs. State and local governments and 
transit agencies are doing what they can to improve security, but it is 
important that the Federal Government be a full partner in the effort 
to ensure the security of the Nation's transit users.
    In fiscal year 2003, transit security was allocated $65 million in 
Federal funds from DHS for 20 transit systems. In fiscal year 2004, $50 
million was allocated from DHS for 30 transit systems. For the first 
time in fiscal year 2005, Congress specifically appropriated $150 
million for transit, passenger and freight rail security. Out of the 
$150 million, transit is to receive approximately $130 million--almost 
$108 million for rail transit and more than $22 million for bus. Also, 
passenger ferries are slated to receive an additional $5 million for 
security from a separate account. In fiscal year 2006, Congress 
appropriated $150 million for transit, passenger and freight rail 
security. DHS is currently deciding how to allocate this funding among 
the modes of transportation. We are very appreciative of this effort. 
However, in the face of significant needs, more needs to be done.
    Transit authorities have significant and specific transit security 
needs. Based on APTA's 2003 Infrastructure Database survey, over 2,000 
rail stations do not have security cameras. According to our 2005 
Transit Vehicle Database, 53,000 buses, over 5,000 commuter rail cars, 
and over 10,000 heavy rail cars do not have security cameras. Fewer 
than one-half of all buses have automatic vehicle locator systems 
(AVLs) that allow dispatchers to know the location of the bus when an 
emergency occurs. Nearly 75 percent of demand response vehicles lack 
these AVLs. Furthermore, no transit system has a permanent biological 
detection system. In addition, only two transit authorities have a 
permanent chemical detection system. A partnership with the Federal 
Government could help to better address many of these specific needs.
    We are disappointed that the Administration proposed only $600 
million for a Targeted Infrastructure Protection Program in the fiscal 
year 2007 DHS budget proposal, which would fund infrastructure security 
grants for transit, seaports, railways and other facilities. We are 
also disappointed that the Administration did not include a specific 
line item funding amount for transit security. We look forward to 
working with the Administration and Congress in securing adequate 
transit security funding that begins to address unmet transit security 
needs throughout the country.
    We further request that the existing process for distributing DHS 
Federal grant funding be modified so that funds are distributed 
directly to transit authorities, rather than to State Administrating 
Agencies (SAA) on a regional basis. We believe direct funding to the 
transit authorities would be more efficient and productive. The 
Administration's process and conditions that have been put into effect 
have created significant barriers and time delays in getting the actual 
funds into the hands of transit agencies.
    As I noted in previous testimony, APTA is a Standards Development 
Organization (SDO) for the public transportation industry. We are now 
applying our growing expertise in standards development to transit 
industry safety and security, best practices, guidelines and standards 
as well. We have already begun to initiate our efforts for security 
standards development and we have engaged our Federal partners from 
both the DHS and Department of Transportation in this process. Through 
these initial meetings, I am pleased to advise that our Federal 
partners have agreed to support these efforts. We look forward to 
working with the Administration and Congress in support of this 
initiative. We respectfully urge Congress to provide $500,000 to the 
DHS so that it can in turn provide that amount in grant funding to the 
APTA security standards program which includes participation of our 
Federal partners to assist with the development of such standards and 
practices consistent with what we have already seen through the Federal 
Transit Administration (FTA). Our efforts in standards development for 
commuter rail, rail transit and bus transit operations have been 
significant and our status as a SDO is acknowledged by both the FTA and 
the Federal Railroad Administration (FRA). The FTA and the 
Transportation Research Board have supported our standards initiatives 
through the provision of grants.
    We also would like to work with Congress and the Department of 
Homeland Security's Directorate of Science and Technology to take a 
leadership role in advancing research and technology development to 
enhance security and emergency preparedness for public transportation.

                          INFORMATION SHARING

    Since the terrorist attacks of September 11, 2001, public transit 
systems across the country have worked very hard to strengthen their 
security plans and procedures and have been very active in training 
personnel and conducting drills to test their capacity to respond to 
emergencies. As well, to the extent possible within their respective 
budgets, transit systems have been incrementally hardening their 
services through the introduction of additional technologies such as 
surveillance equipment, access control and intrusion detection systems. 
While the transit systems have been diligent, they have been unable to 
fully implement programs without more assistance from the Federal 
Government.
    A vital component of ensuring public transit's ability to prepare 
and respond to critical events is the timely receipt of security 
intelligence in the form of threats, warnings, advisories and access to 
informational resources. Accordingly, in 2003, the American Public 
Transportation Association, supported by Presidential Decision 
Directive #63, established an ISAC for public transit systems 
throughout the United States. A funding grant in the amount of $1.2 
million was provided to APTA by the Federal Transit Administration to 
establish a very successful Public Transit ISAC that operated 24 hours 
a day, 7 days a week, and gathered information from various sources, 
including DHS, and then passed information on to transit systems 
following a careful analysis of that information. However, given that 
the Federal Transit Administration was subsequently unable to access 
security funds, and given the decision of DHS to not fund ISAC 
operations, APTA then had to look for an alternate method of providing 
security intelligence through DHS's newly created Homeland Security 
Information Network (HSIN). APTA continues to work with DHS staff to 
create a useful HSIN application for the transit industry. It is clear, 
however, that while the HSIN may become an effective resource, it does 
not match the 24/7 two-way communication functions provided through the 
Public Transit ISAC. However, we believe that consistent, on-going and 
reliable funds from Congress should be provided for the Public Transit 
ISAC that has been proven an effective delivery mechanism for security 
intelligence. Therefore, we respectfully urge Congress to provide 
$600,000 to maintain the Public Transit ISAC.
    In addition, APTA's membership includes many major international 
public transportation systems, including the London Underground, Madrid 
Metro, and the Moscow Metro. APTA also has a strong partnership with 
the European-based transportation association, the International Union 
of Public Transport. Through these relationships, APTA has participated 
in a number of special forums in Europe and Asia to give United States 
transit agencies the benefit of their experiences and to help address 
transit security both here and abroad.

                      COST OF HEIGHTENED SECURITY

    Following the attacks on London, APTA was asked to assist the TSA 
in conducting a teleconference between the TSA and transit officials to 
discuss transit impacts pertaining to both increasing and decreasing 
the DHS threat levels. There is no question that increased threat 
levels have a dramatic impact on budget expenditures of transit systems 
and extended periods pose significant impacts on personnel costs. These 
costs totaled $900,000 per day for U.S. public transit systems or an 
estimated $33.3 million from July 7 to August 12, 2005 during the 
heightened state of ``orange'' for public transportation. This amount 
does not include costs associated with additional efforts by New York, 
New Jersey and other systems to conduct random searches.
    Many transit systems are also implementing other major programs to 
upgrade security. For example, New York's Metropolitan Transportation 
Authority (NY-MTA) is taking broad and sweeping steps to help ensure 
the safety and security of its transportation systems in what are among 
the most extensive security measures taken by a public transportation 
system to date. NY-MTA will add 1,000 surveillance cameras and 3,000 
motion sensors to its network of subways and commuter rail facilities 
as part of a $212 million security upgrade announced late last year 
with the Lockheed Martin Corporation. In fact, NY-MTA plans to spend 
over $1.1 billion between now and 2009 on transit security.

                       SECURITY INVESTMENT NEEDS

    Mr. Chairman, since the awful events of 9/11, the transit industry 
has invested some $2 billion of its own funds for enhanced security 
measures, building on the industry's already considerable efforts. At 
the same time, our industry undertook a comprehensive review to 
determine how we could build upon our existing industry security 
practices. This included a range of activities, which include research, 
best practices, education, information sharing in the industry, and 
surveys. As a result of these efforts we have a better understanding of 
how to create a more secure environment for our riders and the most 
critical security investment needs.
    Our latest survey of public transportation security identified 
enhancements of at least $5.2 billion in additional capital funding to 
maintain, modernize, and expand transit system security functions to 
meet increased security demands. Over $800 million in increased costs 
for security personnel, training, technical support, and research and 
development have been identified, bringing total additional transit 
security funding needs to more than $6 billion.
    Responding transit agencies were asked to prioritize the uses for 
which they required additional Federal investment for security 
improvements. Priority examples of operational improvements include:
  --Funding current and additional transit agency and local law 
        enforcement personnel
  --Funding for over-time costs and extra security personnel during 
        heightened alert levels
  --Training for security personnel
  --Joint transit/law enforcement training
  --Security planning activities
  --Security training for other transit personnel
    Priority examples of security capital investment improvements 
include:
  --Radio communications systems
  --Security cameras on-board transit vehicles and in transit stations
  --Controlling access to transit facilities and secure areas
  --Automated vehicle locator systems
  --Security fencing around facilities
    Transit agencies with large rail operations also reported a 
priority need for Federal capital funding for intrusion detection 
devices.
    Mr. Chairman, the Department of Homeland Security issued directives 
for the transit industry in May 2004 which would require that transit 
authorities beef up security and to take a series of precautions which 
would set the stage for more extensive measures without any Federal 
funding assistance. Transit systems have already carried out many of 
the measures that Transportation Security Administration (TSA) is 
calling for, such as drafting security plans, removing trash bins and 
setting up procedures to deal with suspicious packages. The cost of 
these measures and further diligence taken during times of heightened 
alert is of particular concern to us. We look forward to working with 
you in addressing these issues.
    As you know, in the fiscal year 2006 Homeland Security 
Appropriations bill (Public law 109-90), TSA can hire rail inspectors 
using an $8 million appropriation. We have concerns about this 
provision. We believe that funding for the inspectors would be better 
spent on things that would support the industry such as surveillance 
cameras, emergency communication and other systems rather than 
highlighting security issues without providing the necessary resources 
to address them. We look forward to working with you in addressing our 
concerns.

                   ONGOING TRANSIT SECURITY PROGRAMS

    Mr. Chairman, while transit agencies have moved to a heightened 
level of security alertness, the leadership of APTA has been actively 
working with its strategic partners to develop a practical plan to 
address our industry's security and emergency preparedness needs. In 
light of our new realities for security, the APTA Executive Committee 
has established a Security Affairs Steering Committee. This committee 
addresses our security strategic issues and directions for our 
initiatives. This committee will also serve as the mass transit sector 
coordination council that will interface with DHS and other Federal 
agencies forming the government coordinating council.
    In partnerships with the Transportation Research Board, APTA 
supported two TCRP Panels that identified and initiated specific 
projects developed to address Preparedness/Detection/Response to 
Incidents and Prevention and Mitigation.
    In addition to the TCRP funded efforts, APTA has been instrumental 
in the development of numerous security and emergency preparedness 
tools and resources. Many of these resources were developed in close 
partnership with the FTA and we are presently focused on continuing 
that same level of partnership with various entities within DHS. Also, 
APTA has reached out to other organizations and international 
transportation associations to formally engage in sharing information 
on our respective security programs and to continue efforts that raise 
the bar for safety and security effectiveness.
    APTA has long-established safety audit programs for commuter rail, 
bus, and rail transit operations. Within the scope of these programs 
are specific elements pertaining to Emergency Response Planning and 
Training as well as Security Planning. In keeping with our industry's 
increased emphasis on these areas, the APTA Safety Management Audit 
Programs have been modified to place added attention to these critical 
elements.

                               CONCLUSION

    Mr. Chairman, in light of our Nation's heightened security needs 
post 9/11, we believe that increased Federal investment in public 
transportation security by Congress and DHS is critical. The public 
transportation industry has made great strides in transit security 
improvements since 9/11 but much more needs to be done. Therefore, we 
respectfully urge Congress to provide at least $560 million in the 
fiscal year 2007 Department of Homeland Security Appropriations bill 
for transit security grants to assist transit systems to continue to 
address the $6 billion in identified transit security investment needs. 
Funding at this level annually would also allow for dramatic 
improvement in security for the Nation's transit users over a 10 year 
period. We also respectfully urge Congress to provide $500,000 to the 
Department of Homeland Security so that DHS can in turn provide that 
amount in grant funding to the APTA security standards program which 
includes participation of our Federal partners to assist with the 
development of transit security standards and practices consistent with 
what we have already seen through the FTA. In addition, we respectfully 
urge Congress to provide $600,000 to maintain the Public Transit ISAC.
    We have also found that investment in public transit security 
programs, resources and infrastructures provides a direct benefit in 
preparation and response to natural disasters as well. We look forward 
to building on our cooperative working relationship with the Department 
of Homeland Security and Congress to begin to address these needs. We 
again thank you and the Committee for allowing us to submit testimony 
on these critical issues and look forward to working with you on safety 
and security issues.
                                 ______
                                 

   Prepared Statement of the International Association for Emergency 
                                Managers

    Chairman Gregg, Ranking Member Byrd, and distinguished members of 
the Subcommittee, thank you for allowing me this opportunity to provide 
testimony on the President's fiscal year 2007 budget request for the 
Department of Homeland Security.
    I am Michael D. Selves. I am currently the Emergency Management and 
Homeland Security Director for Johnson County, Kansas. Johnson County 
constitutes the Southwest suburbs of the Kansas City Metropolitan Area 
and, with a population of approximately a half million, is the most 
populous county in Kansas. I currently serve as the First Vice 
President of the International Association of Emergency Managers (IAEM) 
and am providing this testimony on their behalf. I am also a Certified 
Emergency Manager (CEM), and have served IAEM over the past 5 years as 
chair of the Government Affairs Committee. For the past 11 years I have 
been an active participant in the National Association of Counties, 
chairing their Subcommittee on Emergency Management, as a charter 
member of their Homeland Security Task Force as well as serving 2 years 
on their Board of Directors. I was appointed by Department of Homeland 
Security Secretary Ridge to his task force on State and local Homeland 
Security funding.
    The International Association of Emergency Managers has over 2,700 
members including emergency management professionals at the State and 
local government levels, the military, private business and the 
nonprofit sector in the United States and in other countries. Most of 
our members are city and county emergency managers who perform the 
crucial function of coordinating and integrating the efforts at the 
local level to prepare for, mitigate the effects of, respond to, and 
recover from all types of disasters including terrorist attacks. Our 
members include emergency managers from large urban areas as well as 
rural counties.
    Hurricane Katrina has unequivocally demonstrated the need for 
strong emergency management programs at the Federal State and local 
levels. As emergency management professionals, we know the only way 
plans, preparations and equipment can be brought to bear in a disaster 
is through the planning efforts--of people . . . people whose job it is 
to bring all elements of a community together to make the plans work 
and who will be there when the time comes to implement those plans. For 
this reason, we are limiting our statement to one single critical 
issue: We respectfully request your assistance in increasing the 
funding for the Emergency Management Program Grant (EMPG).
Emergency Management Performance Grant
  --Request the $13,100,000 funding cut be rejected and the amount 
        increased to $256 million to begin addressing the shortfall.
  --Request that EMPG funding be maintained in a separate account as in 
        the fiscal year 2006 Congressional action and not combined with 
        other grant programs.
    Increase funding for EMPG.--Appropriations Committee report 
language referred to the program as ``the backbone of the Nation's 
emergency management system.'' In order to maintain this system and 
build the capacity required to meet the greatly increasing demands, 
additional investment is needed.
    However, the President's Budget request for fiscal year 2007 
proposes to reduce the funding from the $183,100,000 appropriated in 
fiscal year 2006 to $170,000,000. According to a biennial study 
conducted by the National Emergency Management Association (NEMA) in 
2004 there is a shortfall of $260 million. We respectfully request that 
EMPG be increased $86 million over the fiscal year 2007 request for a 
total of $256,000,000 to begin addressing this shortfall.
    Maintain EMPG as a separate account.--We also urge you to continue 
to maintain EMPG as a separate account. The President's budget includes 
this program in the ``State and Local'' account with a number of other 
grant programs. EMPG is different from the other programs in this 
account. EMPG has existed for over 50 years and supports all hazards 
emergency management, including terrorism. In addition, it is a 
performance based continuing program with deliverables and requirements 
that must be met in order to receive funding the next year.
    EMPG is critically important.--We believe it is the single most 
effective use of Federal funds in providing emergency management 
capacity to State and local governments. No other source of homeland 
security funding is based on a consensus building process determining 
outcomes and specific deliverables backstopped by a quarterly 
accountability process. In fact, we feel this program would more 
accurately be described by the name Emergency Management Assistance 
(EMA) because of the unique requirements for deliverables and 
accountability it imposes--unique among all other homeland security 
sources of financial assistance.
    In addition, this unique program has never experienced ``backlogs'' 
of unspent funds because it is built on the experience and refinement 
of over 5 decades of proven effectiveness and efficiency. EMPG 
assistance requires a 50 percent State or local match, thus creating 
the much-needed ``buy-in'' not present in many other grant programs. 
Actually, the ``buy-in'' in this program is significantly greater due 
to the fact that currently many local jurisdictions are receiving 20 
percent or less. In addition many local jurisdictions receive no 
funding at all because of shortage of funds.
    Examples of the critical benefits of EMPG are the following:
  --This program provides funding for the emergency managers who 
        perform the role of the ``honest broker'' at the State and 
        local level and who establish the emergency management 
        framework for preparedness, response, recovery and mitigation.
  --EMPG funding provides the people who are legally responsible for 
        creating a ``culture of preparedness'' at the State and local 
        level.
  --EMPG funding also provides many of the personnel who can be 
        deployed across State lines to assist other States in case of 
        disaster through the Emergency Management Assistance Compact 
        (EMAC). During the 2005 response to Hurricanes Katrina and Rita 
        65, 919 civilian and military personnel and equipment assets 
        were deployed from 48 States, the District of Columbia, the 
        Virgin Islands and Puerto Rico. Over 2100 missions were 
        performed.
  --EMPG funding has assumed a greater importance in light of recent 
        catastrophic events and the responses to those events. For 
        example, the President and the Department of Homeland Security 
        (DHS) have tasked State and local government emergency managers 
        with the responsibility to review their Emergency Operations 
        Plans regarding the issue of evacuation.
  --EMPG supports the people who have had the added responsibility of 
        administering homeland security funding programs and additional 
        planning efforts since 2001. While we agree the National Plan 
        Review is a vitally important project, floods, tornadoes and 
        other disasters simply haven't stopped happening.
    Without more funding and people we can't reach the level of 
preparedness our Nation deserves and our citizens demand.
    The recent White House report on the response to the Hurricane 
Katrina contains 125 recommendations. A significant number of these 
recommendations are ``top-down'' initiatives which require the 
collaboration and coordination efforts of State and local emergency 
managers in order to be fully implemented. We also know that genuine 
solutions to broad based issues like emergency management can only 
succeed if they recognize the primary importance of State and local 
governments.
    One way to sum things up is to acknowledge that beautiful plans 
written without the input and agreement of key stakeholders on roles 
and responsibilities will gather dust on shelves. A plan that works and 
has broad based buy in may be ugly and patched, but it lives, breathes 
and works, just like the people who implement it in a disaster.
    EMPG provides people who build partnerships.--The single most 
critically important thing EMPG funding provides is emergency 
management personnel at the State and local level. People are the most 
important investment this program makes because without them nothing 
else works. Emergency Management is a people process. I would like to 
point to my own jurisdiction--Johnson County, Kansas--as an example.
    Even before Katrina, we were engaged in the process of evaluating 
and revising our local emergency operations plan. I can tell you that 
this plan truly has broad buy in and acceptance within our 
jurisdiction. This happened because 16 subcommittees involving more 
than 120 people for 8 months of effort developed the 16 annexes of our 
plan. Because of the extensively and intensively people-based approach 
of this process, all of our officials--from our elected local 
leadership and senior management to front-line first responders--know 
and accept their roles and responsibilities. This would not have 
happened without EMPG funding providing the personnel in my office to 
facilitate this process. And the end result is very important. If we 
shake hands before the disaster, we won't have to point fingers 
afterwards.
    Emergency Management personnel at the State and local level have 
long involved private enterprise and faith-based groups in their 
inclusive, all-hazards planning process. For example, many of the State 
and local governments that hosted Katrina survivors fully integrated 
private and faith based organizations in their reception planning. 
These organizations' contributions ranged from providing critically 
needed supplies to serving as counselors and community emissaries for 
potential new residents of our communities.
    In conclusion, we believe this program must be maintained and 
sustained at a level which ensures that we continue to have a strong, 
truly national, system of emergency management in America. I sincerely 
thank you for this opportunity to express our deep concerns.
                                 ______
                                 

        Prepared Statement of the National Border Patrol Council

    The National Border Patrol Council thanks the Subcommittee for the 
opportunity to present the views and concerns of the 10,500 front-line 
Border Patrol employees that it represents regarding the resources 
necessary to provide effective homeland security now and in the future. 
Initially, it is important to recognize that there are numerous aspects 
of homeland security, and each of them must receive adequate funding 
and support in order for the overall program to function properly. 
Deficiencies in any part(s) of the system will weaken the entire 
structure, enabling terrorists and other criminals to exploit these 
vulnerabilities. Thus, it is imperative that all of these matters are 
addressed concurrently. Beyond the obvious need to substantially 
increase the number of personnel in all of the Department of Homeland 
Security's programs, there is an equally pressing need to enhance the 
infrastructure that supports these programs.
    It is beyond dispute that our borders are out of control. Millions 
of people cross them illegally every year, and only a small percentage 
are apprehended. While most of these people are merely seeking to 
improve their economic lot in life, a small but significant percentage 
of them are criminals who take advantage of our open borders, and a few 
terrorists undoubtedly do the same. In order to restore a semblance of 
order to this chaotic situation, the root cause of illegal immigration 
needs to be addressed by turning off the employment magnet that lures 
impoverished people to our country. This will require a significant 
revision in the existing statutes so that employers are able to easily 
determine who has a right to work in this country and are discouraged 
from ignoring or disobeying the law through the certain imposition of 
tough penalties. A single, counterfeit-proof document must serve as the 
foundation of this approach. In order enforce this new law, substantial 
additional resources will need to be allocated. At a minimum, 10,000 
criminal investigators should be added for this purpose.
    Even though the adoption of the foregoing measures would eliminate 
most illegal border crossings by people seeking employment, it would do 
nothing to diminish the flow of criminals and contraband. Stopping this 
illicit activity will require a sophisticated network of detection 
devices coupled with substantial increases in Border Patrol agents to 
respond to such intrusions and apprehend the violators. The additional 
1,500 agents requested by the Administration for the upcoming fiscal 
year is entirely inadequate for this purpose, and should be increased 
to 2,500. Thereafter, the size of the Border Patrol should be increased 
by at least the same amount every year until a total of at least 25,000 
agents are deployed.
    The number of inspections personnel at the Ports of Entry also 
needs to be increased significantly to allow for a more thorough 
inspection process without disrupting the flow of legitimate traffic. 
This will require an expansion of the existing facilities in some 
locations, and the building of additional facilities in areas where 
that is impractical. Moreover, the failed ``One Face at the Border'' 
initiative needs to be discarded in favor of a system that fosters 
specialization in each of the complex areas of immigration, customs, 
and agriculture laws.
    The number of detention beds and personnel to guard detainees also 
need to be augmented significantly. The promise of ``catch and return'' 
is meaningless unless it can be backed up by sufficient resources.
    In order to adequately patrol the thousands of miles of coastal 
areas and other waterways along the boundaries of the United States, 
the Coast Guard also needs substantial increases in personnel.
    The number of Federal Air Marshals has been allowed to dwindle to 
dangerously low levels. A significant increase in the ranks of these 
employees is also critical to efforts to bolster homeland security.
    It is important that the occupations supporting the foregoing 
programs also be increased commensurately. Far too often, these 
important resources are neglected when the primary occupations are 
augmented, resulting in needless inefficiencies.
    The addition of significant numbers of new employees will present 
many challenges. First and foremost, it will be necessary to make these 
occupations more attractive in order to recruit and retain sufficient 
numbers of highly-qualified personnel. Law enforcement agencies 
throughout the country are currently experiencing difficulties meeting 
their recruitment goals, and many of them are finding it necessary to 
increase salaries and benefits to remain competitive.\1\ The Border 
Patrol just raised its entry level age from 37 to 40, reflecting the 
difficulties it is facing in attracting a sufficient number of 
qualified recruits. In many areas of the country, the pay and benefits 
of Federal law enforcement agents already lag behind that of their 
State and local law counterparts. In order to become more competitive 
in this job market, the Federal Government needs to upgrade its pay and 
benefits, and take other steps to ensure that these jobs are deemed 
desirable.
---------------------------------------------------------------------------
    \1\ ``Police Finding It Hard to Fill Jobs; Forces Use Perks And 
Alter Standards,'' The Washington Post, March 27, 2006, page A-1.
---------------------------------------------------------------------------
    The pay of many of the Department of Homeland Security's 
occupations needs to be raised substantially. This includes, but is not 
limited to, Border Patrol Agents, Customs and Border Protection 
Officers, Immigration Enforcement Agents, and Law Enforcement 
Communications Assistants. Moreover, the demoralizing practice of 
requiring many of the Department's law enforcement employees to work 
long hours of overtime without any compensation needs to be remedied by 
placing all employees under the coverage of the Fair Labor Standards 
Act. Also, all of the Department's law enforcement officers need to be 
afforded law enforcement retirement coverage.
    The pay-for-performance plan that is being implemented throughout 
DHS must be discarded in favor of a fair and predictable pay system. 
The pay of dedicated employees should not be left to the whim and mercy 
of arbitrary and capricious supervisors, many of whom are ordered to 
withhold pay increases in order to offset budgetary shortfalls in other 
areas.
    Additionally, the labor-management relations provisions of the 
Homeland Security Act must be repealed. These draconian measures serve 
no legitimate purpose, and will in fact deter employees from exposing 
fraud, waste or corruption. Because they institutionalize the unfair 
treatment of employees, they will also discourage the best and the 
brightest from serving in the Department.
    Although all Federal agencies have the authority to pay generous 
recruitment and relocation bonuses and retention allowances, the 
Department of Homeland Security rarely exercises it because little or 
no money is budgeted for that purpose. This unwise practice needs to be 
remedied. Similarly, the Department needs additional money for the 
purpose of funding personnel relocations. Themovement of personnel from 
one location to another is essential to the success of the 
organization.
    Counter-productive enforcement schemes such as the Border Patrol's 
``strategy of deterrence'' need to be abandoned in favor of effective 
strategies. The notion that criminals and terrorists will be dissuaded 
from crossing the borders illegally because Border Patrol agents are 
positioned at quarter-mile fixed intervals along the border is absurd.
    Surveillance technology can be a useful enforcement tool, 
especially in detecting violators who are attempting to illegally cross 
our borders. The temptation to rely upon such devices to replace 
trained law enforcement officers needs to be resisted, however. Even 
the most sophisticated of these devices is incapable of apprehending a 
single violator. At best, most of these devices are only capable of 
providing snapshot views of intrusions, and their utility is thus quite 
limited. The high cost of complex devices such as unmanned aerial 
vehicles renders them less cost-effective than manned aircraft such as 
helicopters.
    The Department needs to provide all of its officers with instant 
access to databases that allow them to quickly determine if a person is 
wanted for the commission of a crime or suspicion of terrorist 
activities. Disturbingly, almost none of the Department's vehicles have 
portable computers.
    Many of the Border Patrol's vehicles are long overdue for 
replacement. It is senseless to spend large amounts of money repairing 
vehicles that continually break down because of their age and the wear 
and tear of law enforcement use.
    Numerous DHS employees are wearing body armor that is not suited 
for the types of dangers that they face and the environment in which 
they operate. Moreover, the weapons issued to these employees are no 
match for those utilized by the criminals that they face.
    The communications system utilized by many of the Department's 
employees is antiquated and inadequate. There are numerous areas where 
employees routinely operate without the ability to communicate with 
each other because the radio network does not provide coverage. This 
hazardous situation needs to be remedied.
    Many employees do not have hand-held global positioning system 
devices to assist them in navigating around the vast areas that they 
are responsible for patrolling. Moreover, the supply of night vision 
equipment is inadequate, and much of it is outdated.
    Hiring large numbers of employees will require an expansion of the 
existing training facilities. The small size and deplorable condition 
of the Border Patrol's facilities in Artesia, New Mexico are cause for 
particular concern. The infrastructure of that community cannot support 
an operation of the magnitude needed to properly train several thousand 
agents every year, and serious consideration needs to be given to 
finding a new location that is more suited to this purpose.
    As significant numbers of additional personnel are added to all 
parts of the country, it is important to plan ahead and ensure that the 
facilities in those locations are large enough to ensure that the 
operations run efficiently.
    Although most of the infrastructure needs identified herein can 
easily be met through proper planning, the chronic deficiencies in 
these areas demand an approach that incorporates them into the hiring 
process. A funding formula that factors all of these needs into the 
cost of a full career must be developed, adjusted from time to time, 
and followed.
    While the expense of providing effective homeland security may seem 
steep at first glance, it pales in comparison to the cost of failing to 
do so. The investment in the infrastructure of America's homeland 
security must begin now. Further delays will leave our Nation 
needlessly vulnerable to further attacks by those who want to destroy 
us.
                                 ______
                                 

  Prepared Statement of the National Emergency Management Association

Introduction
    Thank you Chairman Gregg, Ranking Member Byrd, and distinguished 
members of the Committee for allowing me the opportunity to provide you 
with a statement for the record on the Department of Homeland Security 
(DHS) fiscal year 2007 budget. I am Bruce Baughman, the President of 
the National Emergency Management Association and Director of the 
Alabama Emergency Management Agency. In my statement, I am representing 
the National Emergency Management Association (NEMA), whose members are 
the State emergency management directors in the States, the U.S. 
territories, and the District of Columbia. NEMA's members are 
responsible to their governors for emergency preparedness, homeland 
security, mitigation, response, and recovery activities for natural, 
man-made, and terrorist caused disasters.
    As you consider the budget for fiscal year 2007, emergency 
management in our country has received greater attention as a result of 
the aftermath of Hurricane Katrina. Though, funding has not followed 
from the Federal Government to assist in meeting the needs for all-
hazards emergency preparedness, response, recovery, and mitigation 
activities. Over the past year, our Nation's emergency management 
system has been tested by the extensive natural disasters that we have 
faced. In all, there were 48 major disaster declarations, 68 emergency 
declarations, and 39 fire management assistance declarations. Every 
single State was impacted by one of these declarations, including the 
District of Columbia, and all but two of the U.S. territories. 48 
States were impacted enough by Hurricanes Katrina and Rita to warrant 
declarations for Federal assistance, whether the States were disaster 
areas or the States took in significant numbers of evacuees. States 
have been mandated to complete comprehensive reviews of evacuation 
plans and other emergency plans with no Federal support. At the same 
time, emergency management continues to prepare for the threat of 
terrorism with new requirements coming from the Federal Government such 
as updating State plans to reflect the National Response Plan (NRP), 
training emergency responders on the new National Incident Management 
System (NIMS), and implementing the National Preparedness Goal mandated 
by Homeland Security Presidential Directive 8 (HSPD 8) on National 
Preparedness with no additional Federal financial assistance to meet 
Federal mandates. The multi-hazards emergency management system 
continues to be the means to practice and exercise for devastating acts 
of terrorism, while at the same time preparing the Nation for 
hurricanes, tornadoes, hazardous materials spills, and floods. We 
respectfully ask for your Committee to consider the role of emergency 
management as you address the fiscal year 2007 appropriations and ask 
for your serious consideration for Federal support for the Emergency 
Management Performance Grant Program (EMPG) to build State and local 
emergency management capacity.
    The Department of Homeland Security budget provides critical 
support to State and local emergency management programs through actual 
dollars, grants, and program support. This year, NEMA would like to 
address three critical issues regarding the proposed Federal budget for 
Department of Homeland Security:
  --Extreme concern for proposed cuts to the Emergency Management 
        Performance Grant (EMPG) program while requirements increase 
        for State and local governments;
  --The need for Federal support for the Emergency Management 
        Assistance Compact (EMAC); and
  --Concerns related to the status of reorganizations at the Department 
        of Homeland Security.

              EMERGENCY MANAGEMENT INFRASTRUCTURE FUNDING

EMPG is the only program for All-Hazards Preparedness/Readiness
    Natural disasters are certain and often anticipated. Every State 
must be able to plan for disasters as well as build and sustain the 
capability to respond. EMPG is the only source of funding to assist 
State and local governments with planning and preparedness/readiness 
activities associated with natural disasters. At a time when our 
country is recovering from one of the largest natural disasters and 
making strides to improve the Nation's emergency preparedness/
readiness, we cannot afford to have this vital program be cut by $13.1 
million. EMPG is the backbone of the Nation's all-hazards emergency 
management system as the only source of direct Federal funding to State 
and local governments for emergency management capacity building. EMPG 
is used for personnel, planning, training, and exercises at both the 
State and local levels. EMPG is primarily used to assist States in 
maintaining personnel for State and local emergency management 
programs, and consequently the Nation's emergency response system. EMPG 
is being used to help States create and update plans for receiving and 
distribution plans for commodities and ice after a disaster, debris 
removal plans, and plans for receiving or evacuating people.
    The State and local government partnership with the Federal 
Government to ensure preparedness dates back to the civil defense era, 
yet increased responsibilities over the last decade have fallen on 
State and local governments. With the recent expanded focus on 
terrorism and the increased demands of the Federal Government to assist 
in implementation of Federal initiatives like the NRP, the NIMS, and 
HSPD8, EMPG becomes more important as a means to ensure State and local 
involvement and compliance with new systems.
    NEMA completed a Quick Response Survey in March 2006 to assess the 
impacts of the proposed cut to the EMPG program. Of the 42 States 
responding, 90 percent of the States will have to cut staff ranging 
from one person to more than 50 positions. If the cut is included in 
the budget: 20 States will have to cut between 1-10 positions; 10 
States will have to cut between 11-30 positions; 4 will have to cut 
between 31-50 positions; and 4 will have to cut more than 50 positions. 
In the same Quick Response Survey, 83 percent of responding States 
report that the majority of EMPG funds go to local grants, so the 
impact of the cut would be greatest on local governments.
State and Local Match
    EMPG is the only program in the Preparedness Account within the 
Department of Homeland Security that requires a match at the State and 
local level. The match is evidence of the critical partnership of State 
and local governments to address the urgent national security need for 
emergency planning for all disasters regardless of the cause. EMPG 
requires a match of 50 percent from the State or local governments. 
According to the NEMA 2004 Biennial Report, budgets for State emergency 
management agencies nationally were reduced by an average of 23 percent 
in fiscal year 2004, yet at the same time States were continuing to 
over match the Federal Government's commitment to national security 
protection through EMPG by $96 million in fiscal year 2004, which is a 
80 percent State and 20 percent Federal contribution.
EMPG Helps Ensure Personnel for Mutual Aid
    During last year's hurricane season, the interdependencies of the 
Nation's emergency management system were demonstrated and one of the 
success stories was the Emergency Management Assistance Compact (EMAC). 
EMAC enabled 48 States, the District of Columbia, the Virgin Islands, 
and Puerto Rico to provide assistance in the form of more than 2,100 
missions of human, military and equipment assets and over 65,000 
civilian and military personnel and equipment assets to support the 
impacted States. The estimated costs of these missions may exceed $829 
million and the missions and requests for aid are continuing. Of the 
personnel providing assistance through EMAC, 46,448 were National Guard 
personnel and 19,431 were civilians. Many of the civilians sent to 
provide assistance were supported by the EMPG program. The nature of 
the Nation's mutual aid system vividly shows the need for all States to 
have appropriate capabilities for all disasters and EMPG allows States 
and local governments to build this capability both for their own use 
and to share in through EMAC. Additional resources are needed to build 
emergency response capabilities on a national basis and to ensure the 
system can handle the demands of natural disasters including 
catastrophic events and other emergencies no matter where they occur.
Appropriate Support Needed to Strengthen Program
    While EMPG received modest increases in 2003 and 2004 after 10 
years of straight-lined funding, the program still needs significant 
investment to accomplish its goals. The final fiscal year 2006 DHS 
conference report provided an additional $5 million for the program, 
but after the across the board cut, the program was left with $183.1 
million. We appreciate all of the efforts of members of Congress and 
the Administration to allow for these increases. The current cut comes 
at a time when emergency management needs to address shortfalls and new 
threats. EMPG needs adequate and predictable resources in order to 
sustain the increased demand for preparedness/readiness. Continued 
funding increases are necessary to make up for a decade of degradation 
of funding and increased State and local commitments because funding 
has not kept pace with inflation or with increasing demand. The 
increased flexibility of EMPG is offset by funding shortfalls estimated 
in the NEMA Biennial Report in 2004 to be over $264 million for all 50 
States. The current shortfall is $260, because of a $3.1 million 
increase in fiscal year 2006.
    The President's budget proposal will have a devastating impact on 
the Nation's emergency management system at the same time that 
responsibilities are increasing for new and emerging hazards. The 
proposal decreases funding for the EMPG program by $10 million. These 
cuts mean that emergency management would be saddled with increased 
mandates, while coping with decreases to an already modest budget. In 
budget consideration for fiscal year 2003, 2004, and 2006, Congress 
affirmed the importance of EMPG in appropriations bills in language 
addressing the significance of the program and increased the levels of 
funding for the program twice. Prior to these modest increases, the 
program had been straight lined for over a decade and even with these 
increases the program's growth rate has not kept pace with inflation 
over the last 15 years. Additionally, Congress affirmed the intent of 
the program as all-hazards and dedicated to supporting personnel during 
consideration of the fiscal year 2006 budget. NEMA is appreciative of 
Congress' recognition of the EMPG program, but this year we 
respectfully ask that Congress aggressively address the programs 
shortfalls with an additional $87 million in funding for EMPG for 
fiscal year 2007, for a total of $270 million.
    Clearly, Congress wants to understand what is being built with 
these investments, especially in tight fiscal conditions. The 2006 
Quick Response Survey found that if States were to each receive an 
additional $1 million in EMPG funding for fiscal year 2007, States 
would use the following percentages for the following activities: 88 
percent of States responding would update plans including evacuation, 
sheltering, emergency operations, catastrophic disasters and others; 83 
percent would provide more training opportunities for State and local 
emergency preparedness and response; 88 percent would provide more 
preparedness grants to local jurisdictions; 69 percent would conduct 
more State and local exercises; and 61 percent would use funding for 
State and local NIMS compliance.
    EMPG's modest Federal increases in helped the program grow, but 
shortfalls continue to force an unequal burden on State and local 
governments. States are continuing to increase their out of pocket 
costs in order to ensure there is adequate funding for local programs. 
The shortfall means that many communities that would like to implement 
a full-time, professional emergency management capability cannot do so 
because of shortfalls in Federal funding. Further, EMPG is primarily 
used as a pass-through program for local governments, so the shortfall 
affects our smallest localities that are often those most in need of 
emergency preparedness planning. Currently, States and local 
governments are over matching the Federal Government's commitment to 
national security protection through EMPG by $96 million according to 
the 2004 NEMA Biennial Report.
Accountability Measures
    Many States have various accountability measures in place to track 
the use of EMPG funding and NEMA supports the development of a national 
system that quantifies the uses of the funding. In fact, NEMA through 
the National Homeland Security Consortium is working closely with the 
new Preparedness Directorate at DHS to work collaboratively on 
performance metrics for HSPD-8 and performance metrics for the Response 
Capabilities in the TCL. The DHS effort will help to develop a national 
picture of EMPG metrics as well. At the same time, States already have 
measures in place at the State level to track the use of EMPG funding 
in their States. Some of the measures in place reported in the 2006 
Quick Response Survey include: 95 percent of responding States have 
reporting requirements; 76 percent of States responding require the 
development of State-wide goals that must be met with the funds; 61 
percent of the States responding call for local governments to 
demonstrate performance against goals that are written by local 
jurisdictions; 42 percent of responding States implement corrective 
action plans if goals are not met with funding; and 45 percent of 
States tie program funding to meeting the standards in place with the 
voluntary Emergency Management Accreditation Program (EMAP) for State 
and local emergency management agencies.
EMPG as a Separate Account
    The President's Budget proposal for fiscal year 2007 suggests 
combining the EMPG account with the Citizen Corp account to form a 
formula-based grant account. NEMA strongly disagrees with this 
approach, as EMPG must be maintained as a separate line item account as 
Congress has affirmed since fiscal year 2003. Congress agreed at that 
time that the program account needed to be visible and easy to find in 
the budget because of the importance of the program. The separate 
account is critical because the program is the only all-hazards grant 
program being administered through the Grants and Training Office to 
emergency management agencies. Further, the separate account allows for 
EMPG to be tracked and has raised visibility on the importance of the 
program among members of Congress. Additionally, we suggest that 
Congress maintain the method of distribution for EMPG, similar to the 
language in the fiscal year 2006 appropriations, however continuing to 
allocate the funding through the State Administrative Agencies (SAAs) 
continues to cause delays in some States. NEMA supports language that 
would expressedly restore the grants allocation to State emergency 
management agencies, to facilitate the process of getting funding to 
emergency management agencies at the State and local level faster.
All-Hazards Approach
    The Federal Government must continue the commitment to ensuring 
national security though all-hazard preparedness. Without adequate 
numbers of State and local personnel to operate the all-hazards 
emergency management system, the infrastructure used to prevent, 
prepare for, respond to, and recover from all disasters will collapse. 
Unfortunately, Hurricanes Katrina and Rita illustrated the need for 
adequate emergency management needs from the ground up. Instead of 
making significant investments towards terrorism preparedness, we must 
maintain an all-hazards approach and shore up the foundation of our 
response system for all disasters regardless of cause--EMPG. We 
strongly ask for Congress to ensure predictable and adequate funding 
levels for the EMPG in fiscal year 2007.

          BUIDING OUR NATION'S MUTUAL AID SYSTEM THROUGH EMAC

    The response to Hurricanes Katrina and Rita resulted in the largest 
deployment of interstate mutual aid in the Nation's history through the 
Emergency Management Assistance Compact (EMAC). As mentioned 
previously, EMAC deployed personnel comprised of multiple disciplines 
from all member States to respond to Louisiana, Mississippi, Alabama, 
Florida, and Texas. EMAC Operations in Louisiana are still underway. 
The process enabled National Guard, search and rescue teams, incident 
management teams, emergency operations center support, building 
inspectors, and law enforcement personnel to immediately assist the 
requesting States in need of support. The National Guard even chose to 
continue under EMAC when deployed under Title 32 because of the 
organization, liability protections, accountability, and tracking 
abilities EMAC provides.
    EMAC was created after Hurricane Andrew by then-Florida Governor 
Lawton Chiles. The system was developed through the members States of 
the Southern Governors' Association to establish mechanisms to enable 
mutual aid among member sates in emergency situations. The Southern 
Regional Emergency Management Assistance Compact (SREMAC) was signed by 
participating Governors in 1993. Following recognition of SREMACs 
nationwide applicability by the National Governors' Association and 
FEMA, Congress enacted EMAC in 1996 (Public Law 104-321). Currently 49 
States, the U.S. Virgin Islands, Puerto Rico, and the District of 
Columbia are members of EMAC. Hawaii is currently considering 
legislation to become a party to the compact during their current 
legislative session. EMAC requires member States to have an 
implementation plan and to follow procedures outlined in the EMAC 
Operations Manual. EMAC takes care of issues such as reimbursement, 
liability protections, and workers' compensation issues.
    Prior to the historic 2005 deployments, EMAC's largest previous 
deployment was during the 2004 Hurricane season in Florida, Alabama, 
and West Virginia, which enabled 38 States to provide assistance in the 
form of more than $15 million in human, military, and equipment assets 
and over 800 personnel to support the impacted States for over 85 days 
of continuous response operations. NEMA utilized the grant funds to 
work with an independent consulting company to complete a 2004 After 
Action Report, that identified areas for continuous improvement for the 
EMAC systems and EMAC has worked to draft a strategic plan to implement 
the lessons learned into practice. NEMA is currently working to 
complete an After-Action Report on the 2005 season, with a meeting of 
stakeholders, assisting States, requesting States, and others later 
this month. The report is expected to be complete by September 2006 and 
the strategic plan will be amended to reflect new lessons learned. The 
support of EMAC is critical to helping offset the costs of disasters 
and maintaining the need for a massive Federal workforce for response 
to catastrophic disasters. The beauty of EMAC is that it provides 
assistance to those in need, but allows others to assist and learn from 
disasters in other States.
    In order to meet the ever-growing need for and reliance on 
interstate mutual aid, EMAC is seeking $4 Million over 3 years to 
continue to build EMAC capabilities. This funding will allow EMAC to 
focus on the implementation of lessons learned from Hurricanes Katrina 
and Rita such as Training and Education, Resource Typing and 
Credentialing, and Information and Resource Management. Since EMAC's 
inception in 1993, EMAC was funded by member States until 2003. In 
2003, FEMA funded EMAC with a 3 year grant of $2 Million. This funding 
expires in November 2006. This funding has been used for administrative 
support of EMAC, development of the EMAC Operations system whereby all 
resources deployed under the Compact are tracked from when it is 
requested until reimbursement is paid, and the 2004 and 2005 after 
action reports.

                      SECOND STAGE REVIEW AND FEMA

    As the Congress looks at the lessons learned and recommendations 
for reform included in reports following Hurricanes Katrina and Rita, 
we ask that NEMA's members be consulted regarding further changes to 
the Department of Homeland Security and FEMA. Most importantly, 
consideration needs to also be given to the connectivity between FEMA 
and the Preparedness Directorate within DHS, since all FEMA's 
preparedness functions were moved out into this new Directorate. When 
the Second Stage Review proposal was announced, NEMA articulated grave 
concern in a July 27, 2005 letter to the Department of Homeland 
Security regarding the Second Stage Review (2SR) creating a 
Preparedness Directorate that would be primarily focused on terrorism. 
The letter to Congress highlighted the lack of the Department's focus 
on natural-hazards preparedness and the inability to connect response 
and recovery operations to preparedness functions, as any unnecessary 
separation of these functions could result in a disjointed response and 
adversely impact the effectiveness of Departmental operations. 
Nevertheless, we understand that the 2SR is moving ahead and look 
forward to finding ways to connect the new Preparedness Directorate 
with FEMA. We fear that if those interrelationships are not made the 
result could mean that many State and local governments will be meeting 
FEMA for the first time when as disaster occurs in their State because 
of the separation of functions. We hope to work with Congress to ensure 
linkages of preparedness, response, recovery, and mitigation functions 
in the all-hazards approach to emergency management.
    NEMA also calls on Congress to consider the needs of the FEMA in 
this year's budget process, to restore the agencies ability to respond 
to all disasters. Our Nation is same point as the Nation was after 
Hurricane Andrew in 1992, questioning organizational structures, 
leadership, the roles of Federal, State, and local government, funding 
for FEMA and emergency management and even citizen preparedness. No 
Federal agency is more qualified structurally and statutorily than FEMA 
to help our Nation respond to and recover from disasters. FEMA has the 
direct relationships with State and local governments because of the 
grant programs and the disaster relief programs authorized through the 
Stafford Act. FEMA is the only Federal agency authorized under the 
Robert T. Stafford Disaster Relief and Emergency Relief Act (42 U.S.C. 
5121 et seq.) to carry out duties on behalf of the President. The 1978 
Reorganization Plan 3, which created FEMA, also gives FEMA the 
responsibility for all of the functions of emergency preparedness and 
response. The plan States:
    ``This reorganization rests on several fundamental principles. 
First, Federal authorities to anticipate, prepare for, and respond to 
major civil emergencies should be supervised by one official 
responsible to the President and given attention by other officials at 
the highest levels. The new agency would be in this position.''
    FEMA is and should be the agency of choice to coordinate the 
functions of the Federal Government in response to disasters, 
regardless of their cause.
    FEMA has the ability to tap into the emergency responder community 
to build relationships through training and exercises. FEMA also has 
the skills to work cooperatively with State and local elected and 
appointed officials to work towards comprehensive recovery. FEMA has 
the coordinating function in the Federal Government and should have the 
ability to tap all the resources at the Federal level to respond to a 
disaster. However, all these areas need to be strengthened with an all-
hazards focus to ensure that Federal, State, and local governments are 
building relationships before a disaster and understand how to work 
together cohesively. FEMA also needs financial support to maintain and 
build their capacity.
    The time to stop the cycle of degradation of emergency management 
functions by reorganization after reorganization is now and we must 
systematically improve our Nation's emergency response system through 
verified lessons learned and not reactionary decisions. We hope that 
Congress will partner with NEMA as they move forward to consider 
changes to DHS organizational functions and the role of FEMA.

                               CONCLUSION

    The last year has proved our Nation's continuous vulnerability 
against all-hazards of many sizes. We will be faced with recovery on 
the Gulf Coast for many years to come and we cannot ignore the 
predictions for the coming Hurricane season. We must continue to build 
national preparedness efforts with a multi-hazard approach. In this 
year's appropriations process Congress will make critical decisions 
that shape the future of emergency management in this country. As you 
begin your consideration, we ask you to recognize the importance of 
adequately funding the EMPG program in building capacity through people 
at the State and local level for all disasters. I thank you for the 
opportunity to testify on behalf of NEMA and appreciate your 
partnership.

</pre></body></html>
